HHS/OIG, Audit - "Credentialing and Privileging Practices at IHS
Blackfeet Community Hospital," (A-07-03-00152)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Credentialing and Privileging Practices at IHS Blackfeet Community
Hospital," (A-07-03-00152)
June 13, 2005
Complete
Text of Report is available in PDF format (247 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Blackfeet Community
Hospital located in Browning, Montana had completed the credentialing,
privileging, and personnel suitability reviews for its medical practitioners.
For more than half of the practitioners tested, we found that the hospital did
not perform a complete credentialing review or initiate the required personnel
suitability review.  The hospital did not verify the credentials of 55 percent
of the sampled practitioners before they provided patient care, did not issue
current privileges for six percent, and did not have information indicating
that it had requested background investigations from the Office of Personnel
Management (OPM) for 52 percent of practitioners.
We recommended that IHS direct Blackfeet Community Hospital to: (1) take action
necessary to ensure the credentialing and privileging reviews are completed in a
timely manner, and (2) initiate the required OPM background investigations for
its practitioners.  In written comments, IHS stated that all recommended
corrected actions had been taken.